<html>
<title> - THE GENERAL SERVICES ADMINISTRATION'S FISCAL YEAR 2007 CAPITAL INVESTMENT AND LEASING PROGRAM</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
     THE GENERAL SERVICES ADMINISTRATION'S FISCAL YEAR 2007 CAPITAL 
                     INVESTMENT AND LEASING PROGRAM

=======================================================================

                                (109-63)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 30, 2006

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                    U.S. GOVERNMENT PRINTING OFFICE
28-278                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)

  


 Subcommittee on Economic Development, Public Buildings and Emergency 
                               Management

                  BILL SHUSTER, Pennsylvania, Chairman

JIM GERLACH, Pennsylvania            ELEANOR HOLMES NORTON, District of 
KENNY MARCHANT, Texas, Vice-Chair    Columbia
CHARLES W. DENT, Pennsylvania        MICHAEL H. MICHAUD, Maine
JOHN R. `RANDY' KUHL, Jr., New York  LINCOLN DAVIS, Tennessee
DON YOUNG, Alaska                    JULIA CARSON, Indiana
  (Ex Officio)                       JAMES L. OBERSTAR, Minnesota
                                       (Ex Officio)

                                 (iii)

  
                                CONTENTS

                               TESTIMONY

                                                                   Page
 Winstead, David L., Commissioner, Public Buildings Service, 
  General Services Administration................................     3

              PREPARED STATEMENT SUBMITTED BY THE WITNESS

Winstead, David L................................................    20

                       SUBMISSION FOR THE RECORD

Roth, Judge Jane R., U.S. Court of Appeals for the Third Circuit, 
  Chair, Judicial Conference Committee on Security and 
  Facilities, statement..........................................    26


     THE GENERAL SERVICES ADMINISTRATION'S FISCAL YEAR 2007 CAPITAL 
                     INVESTMENT AND LEASING PROGRAM

                              ----------                              


                        Thursday, March 30, 2006

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Economic Development, Public Buildings and 
            Emergency Management, Washington, D.C.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2253, Rayburn House Office Building, Hon. Bill Shuster 
[chairman of the committee] presiding.
    Mr. Shuster. The Subcommittee will come to order. I was 
going to welcome all the other members of the Subcommittee, but 
it looks like I am the only one that has made it here so far. I 
know Ms. Norton is on her way and will hopefully join us 
shortly, but we are going to go ahead and get started.
    We have got a crowd here this morning, too. No members, but 
we have got people in the audience, which is a different twist 
for us. So welcome all of you here this morning. There is, I 
guess, interest in what we are going to be talking about today 
and the bills we are going to be marking up.
    Each year, the General Services Administration submits to 
Congress prospectuses for the alteration, acquisition, design, 
construction, and lease of Federal buildings and courthouses to 
house Executive Branch agencies and the judiciary, and, in 
turn, perform a detailed review of the request and closely 
examine each project submitted for our consideration.
    The resolutions we will mark up later this morning reflect 
those that the Committee has determined are acceptable, 
sensible, and beneficial to the Government and qualify for our 
consideration at this time. Other prospectuses are undergoing 
additional review and will be considered at a later date. The 
GSA will provide brief detail of the submitted prospectuses and 
I will explain them more fully during the markup.
    It is important to note that the President did not include 
any new construction for the judiciary in fiscal year 2007 
budget. The Committee is hesitant to authorize any additional 
courthouse construction projects at this time because they are 
not included in the budget and the Committee is awaiting GAO 
reports on the judiciary's rents and courtroom sharing. The 
judiciary has continued to raise issues over rent payments to 
GSA. The courts are concerned over the growing percentage of 
their budget going to GSA for rent and the related effects on 
court operations.
    The Committee is aggressively examining the rent issue, as 
well as the courthouse building program. Last April we 
commissioned a study of the judiciary's rent by the GAO. We 
requested the GAO to investigate how rent payments were 
calculated by the GSA, how payments are planned and accounted 
for by the judiciary, which changes the judiciary has 
experienced in rent payment in recent years, and what impact a 
permanent rent exemption would have on the Federal Building 
Fund. I look forward to the upcoming release of this GAO study 
as we continue oversight of the courthouse construction.
    This Committee has also requested that the courts initiate 
a comprehensive courtroom usage study in coordination with the 
GAO. This study will investigate how often courtrooms are 
actually used for official functions. I appreciate the fact 
that the courts are moving forward with this important 
undertaking, although I am very concerned by the slow pace and 
limited process that they have made to this date. I look 
forward to the results of the study and hope they assist this 
Committee in fully grasping the needs of the courts as we 
consider future requests for courtroom construction.
    On a separate note, we must tackle the issue of market 
price increases today. Market price increases are not due to a 
change in the scope of a project or failures by the government 
or contractor to keep a project on budget. These increases are 
solely due to unexpected issues, such as significant increases 
in the cost of steel and cement and labor shortages. The 
Committee has examined these requests and found them reasonable 
and necessary to complete these projects.
    Over the past few years, this Committee's ability to 
authorize GSA projects has been delayed by GSA's inability to 
provide this Committee with Capital Investment and Leasing 
Program by March, leaving little guidance for the appropriators 
as they consider project funding. This year is different.
    I would like to commend Commissioner Winstead and Deputy 
Commissioner Tony Costa for submitting the Capital Investment 
Program in February and a majority of the leases program to the 
Committee by the first week of March. By providing this 
information shortly after the submission of the President's 
budget, our Committee can properly fulfill our role as the 
authorizers of these projects. I want to thank you gentlemen 
again for presenting those to us in a timely fashion, and I 
look forward to this promptness in the future.
    I would also like to reiterate my intention to closely 
examine each project that is submitted for our consideration. 
While we are not delving further into the details of the 
courts' supposed rent crisis today, it is an issue that has 
forced us to reexamine our role in the approval of projects 
over the years and will require additional oversight in the 
future.
    And, with that, we have no other members, so--oh, welcome. 
Thanks for coming today.
    Mr. Winstead, why don't we ask you to come to the desk?
    I need to ask unanimous consent that our witness's full 
statement be included in the record. Without objection, so 
ordered.
    Since your written testimony has been made part of the 
record, the Subcommittee would request that you limit your 
summary to five minutes or a little longer. We are not going to 
be too tough on you on time today.
    We do have but one witness, for those of you in the 
audience today, Mr. David Winstead. He is Commissioner of the 
General Services Administration's Public Building Service.
    This is your first time testifying before the Committee, so 
we welcome you. Congratulations on your appointment. We have 
worked together already and look forward to continuing to work 
with you and look forward to your testimony. With that, you may 
proceed.

TESTIMONY OF DAVID L. WINSTEAD, COMMISSIONER, PUBLIC BUILDINGS 
            SERVICE, GENERAL SERVICES ADMINISTRATION

    Mr. Winstead. Chairman Shuster, thank you. And, again, it 
is a pleasure. This is my first appearance before the 
Subcommittee, but I have met with other members prior to this 
to sort of brief on the continued program at GSA Public 
Buildings.
    Obviously, our mission--former Commissioner Moravec has 
been here on a number of occasions, and our mission continues 
to be providing a superior workplace solution at best value to 
the American taxpayer, and I think we are charged, most 
importantly, with the responsibility of managing the Federal 
Building Fund and the Revolving Fund created in 1972 that funds 
the space needs of over 59 Federal agencies using a market 
based approach. And I think you all have had testimony over the 
last couple of years of new innovations that we put in place 
both a customer service and an asset management that had, I 
think, improved that delivery.
    Each year, obviously, Congress vests us and appropriates 
funds to our customer agencies, who then pay user fees, a rent 
approximating the equivalent of commercial rents for the space 
that they utilize. One of the purposes of requiring these 
agencies to pay rent is to encourage them to both weigh the 
cost of their space needs within their budgets, as well as to 
prioritize their own mission versus their facility needs, and I 
think this funding approach requires agencies to make choices 
in balancing their demand for space, as well as fulfilling and 
having the budgets to fulfill their mission program.
    At the same time, I think GSA offers them the flexibility 
in the selection of space options and quality, and obviously 
amenities. Congress does rely on the Federal Building Fund to 
provide that reliable source for GSA to both rent space from 
the private sector, operate, maintain, repair, and modernize 
their own inventory, as well as constructing new Federal 
facilities in support of GSA customer service missions.
    We are pleased, as you said, Mr. Chairman, in submitting 
the Capital Investment and Leasing Program to you in mid-
February this year. When we met at the end of last year, when I 
first got in this position, you encouraged us to get it in a 
little earlier, and I am pleased that you acknowledged that. I 
am testifying in support of that authorization of that program 
today, and GSA requests your authorization of the individual 
projects that are in the project, which we believe reflect 
wisely investments and scarce taxpayers, but ultimately provide 
the best support for our customer agencies, as well as 
maintaining our very important Federal real estate portfolio.
    We have analyzed all these projects and feel that they 
address the most critical customer needs, as well as the 
President's right-sizing goal for real estate asset management. 
Since we last--since I think the commissioner last was before 
this Committee, we have in fact achieved a green status in the 
President's Management Agenda for asset management approach, 
the tiering approach we have in our portfolio and a lot of our 
efforts to move both project completions, as well as 
dispositions of underutilized space.
    We are obviously acquiring and constructing new Government-
owned assets to meet these long-term needs, which we hope 
continue to be cost-effective; reducing the number of vacant 
underutilized facilities. Last year we disposed almost 30 
properties. We have improved conditions of mission-critical and 
mission-dependent assets to ensure continued functionality, as 
well as increase security needs and life safety and a very 
pleasant work environment. And we continue to improve the 
operation efficiency of key facilities and achieving the energy 
efficiency goals set out in the 2005 Energy Policy Act.
    As you know, in the repair and alteration section of this 
program we continue to be steward of over 1500 Federal 
buildings, with a replacement value of about $41 billion, and 
we are requesting a Repair and Alteration Program of about $866 
million to maintain and improve these projects, which are 
critically needed for the missions of our customer agencies.
    Some of the highlights of GSA's fiscal year 2007 Repair and 
Alteration Program include: $375 million for Basic Program, $23 
million for more Limited Scope, as well as $398 million for 
Major Renovation. In addition, there is a section in the 
program which devotes about $25 million for our Design Program, 
$15 million for continuation of our energy focus, as well as 
$10 million for the CFC program; also, $10 million additionally 
for the Class Fragmentation Program, which, again, is meeting 
the security needs that we are for many of our buildings these 
days, another $10 million for Fire and Life Safety.
    I should note that we have evaluated and ranked our repairs 
and alterations proposals based on a lot of following criteria: 
customer urgency based on mission requirements, as well as 
overall satisfaction levels; the physical urgency in these 
buildings in terms of the building conditions and needs; the 
economic justification in terms of financial return and present 
value; and as well as project timing and execution risks.
    The projects before you today have passed these three 
criteria and reflect sound investment in our own portfolio, 
and, again, best return to the American taxpayer.
    In addition, in the New Construction section we are 
requesting some $690 million under Construction and Acquisition 
of Facilities. We traditionally pursue a construction ownership 
solution for special and unique facilities. Two of these that 
are obviously of great concern to this Committee and are unique 
facilities are our border station program, as well as our 
courthouse program, which are not available in terms of their 
functional needs and designs in the real estate marketplace.
    We recommend new construction where it meets new housing 
needs of specific agencies or to consolidate several dispersed 
agencies with long-term needs in terms of a given location. Our 
construction program requests include also funding for site 
acquisition, design, construction, and management inspection 
costs of these Federal facilities.
    If you look at the program this year, our construction 
program reflects long-term customer needs in the Washington, 
D.C. area for agency headquarters, significant funding for 
border stations in support of our Customs and Border Protection 
role and their program in securing the border initiatives. The 
highlights of our fiscal year 2007 program include:--and I see 
Delegate Norton has joined us--$306 million for the Coast Guard 
consolidation at the St. Elizabeth's Campus; another $179 
million for the Food and Drug Administration at White Oak--I 
recently toured that facility, as well as St. Elizabeth's 
campus--$40 million for the Remote Delivery Facility in 
Washington, D.C.; $6 million for general infrastructure 
support; $53 million for the transfer of the Nebraska complex 
to the Department of Navy; $97 million for site acquisition 
design and construction of eight border stations; and $10 
million for Non-prospectus Construction Program.
    In addition, the last component is a strong leasing program 
with total leasing inventory of over 166 million square feet 
located in 7200 buildings in the U.S. We are pleased that the 
vacancy rate, which is one of our benchmark performance that we 
review on a quarterly basis, is currently standing at 1.2 
percent, a figure well below the current market industry 
average of 12.5 percent.
    We strive to keep leasing costs below market levels, and 
have developed, as you know, comprehensive strategies to do 
that, including the new national brokerage contract, including 
the standard use of industry benchmark such as BOMA, operating 
costs, and market surveys to compare our shop with sort of best 
practices in the field.
    This year, we are actually submitting 17 lease prospectuses 
for your consideration. This constitutes the majority of our 
lease program submittal. We are currently working on additional 
proposals, as the Chairman noted.
    And one of the final notes I would mention is that we are 
always very, very conscious of budget constraints, both within 
GSA, we are looking to contain costs in our operation and our 
staffing. We obviously are very, very sensitive to the customer 
agencies and the budget constraints they are under. You 
mentioned the issues with the Judiciary. And we are continuing 
to devote ourselves and time to manage our real estate and 
manage our purchases to maintain and control those costs.
    We are collaborating with a lot of tenant agencies to 
identify feasible approaches to meeting customer constraints. 
Some of those, including the FBI, which I know has a lot of 
lease prospectuses in this submittal. We are identifying ways 
to improve operational efficiency and reducing operating costs, 
managing procurements, providing information for customer 
decision-making, as well as consolidating requirements and 
maximizing customer utilization of space.
    In an executive order in 2004, President Bush issued the 
Federal Real Property Asset Management Act, and I mentioned 
that it focused our efforts on managing that Federal inventory, 
as well as utilizing very cost-effective space actions in terms 
of leases, and I am pleased that, as I said before, that we 
have achieved green under the President's Management Agenda in 
that regard.
    Mr. Chairman, I think that pretty much on target here 
concludes my prepared remarks. I thank the members of the 
Committee for being here and I am pleased to answer any 
questions about our 2007 Capital Investment and Leasing 
Program.
    Mr. Shuster. Well, thank you very much, Commissioner. I 
have a couple questions on the Coast Guard headquarters. I know 
there are going to be other tenants that join the Coast Guard 
down there. Has it been determined who those other tenants are 
going to be in that facility with them?
    Mr. Winstead. Congressman, we are working very closely with 
the Department of Homeland Security, in addition to the Coast 
Guard. We were up here testifying at their budget hearing, the 
Coast Guard budget hearing, and, as you know, in the prospectus 
it has a number of investments to both look at St. Elizabeth's, 
in terms of design as well as access, and I know we are waiting 
for a housing plan from the Department of Homeland Security for 
final proposal for utilization of the St. Elizabeth's campus.
    Mr. Shuster. In that plan, you have been working closely 
with them and looking at consolidating some of those DHS--
    Mr. Winstead. That is correct.
    Mr. Shuster.--departments, because I know they are spread 
all over the city.
    Mr. Winstead. That is correct. And I know we are taking an 
active role through the NCR. We have 11 regions around the 
Country. NCR is obviously engaged in the leadership on this. 
Delegate Norton is having a meeting I think next week with some 
of the community around there, so we are trying to both keep 
very engaged with the community, as well as obviously address 
DHS and Coast Guard and other options.
    Mr. Shuster. Okay. On the national brokers contract, we 
spoke about it briefly before we started the hearing. I have 
been talking to some of the brokers, and they feel as though 
they have not been getting the number of leases that they 
anticipated by this time. Do you have any--I was told by one 
firm that they received maybe $3 million to $4 million in 
contracts, and they expected to be at $20 million or $30 
million. I don't know the exact number. Can you address that 
here?
    Mr. Winstead. Sure. Congressman, I know you had a concern 
about this earlier when I came up here to have sort of an 
introductory meeting, and I issued a letter, sent a letter to 
you on January the 3rd which outlined sort of the status of the 
contract. As you know, my predecessor, Commissioner Moravec, 
felt very strongly that we needed to restructure our customer 
service approach at GSA.
    We actually did that by establishing national account 
managers, which enabled us to work through the regions and from 
head office to look at the long-term needs of our clients and 
to really look further out, anticipating their needs to be able 
to deal with market fluctuations to get them the best deals, 
and this is now still being implemented. Part of that effort 
was to expand our ability to get the best market-based 
information on real estate options in the 6,000 communities 
that we are in around the Country.
    We did contract, a year ago, with Jones Lang Studley, 
Starbuck Company and Trammell Crowe to aid in that effort. In 
addition to that, we have spent a lot of the past year training 
our realty specialists to understand the importance and the 
relationship that these brokers can provide through these 
contracts in delivering the best deal for the Federal 
Government in that regard.
    We have had training that has taken part in all the regions 
around the Country and also in Washington. We are 12 months 
into the contract. We have basically had over 400 task orders 
issued and basically handled almost 9 million square feet 
through those leases. There is a renewal of that for a second 
year upon us, and we are working closely with them to try to 
achieve our goals set out for that program. They do vary from 
region to region.
    Historically, some of our regions have been much more 
engaged in utilizing broker relationships. This is our new 
approach to these four contracts. Some are over 50 percent and 
on their targets, and others are less, and I think what we 
would like to do is to continue to focus on this as an 
important tool for us, and I would be happy, as we discussed 
before the hearing, to come up here and really bring the head 
of our customer service in our head office, our AC up here, to 
go through exactly what is happening in each region through 
these brokerage contracts.
    But I will tell you, in conclusion, that I came back last 
week from meeting with the head of all of our real estate in 
all the 11 regions around the Country--we had a meeting--and we 
pushed and reviewed the brokerage contract, and what is very, 
very positive is that they feel it is a great tool; it is 
yielding benefit to us and our Federal tenants and achieving 
the best deal for the Government. So I think it is working. The 
question is making sure we achieve those goals.
    Mr. Shuster. Right, because these folks are concerned that 
there has been some cherry-picking going on within the GSA and 
they are not getting the better contracts, they are getting 
sort of the low end contract. We want to make sure to share in 
your enthusiasm and moving forward, making sure this program 
works and that it will be a good tool.
    Mr. Winstead. And I would be happy to provide to the 
Committee sort of a quarterly update on that contract, if you 
would like.
    Mr. Shuster. That would be great. And my final question had 
to do with the Federal judiciary. They are asking for permanent 
rent exemptions so they would be exempt from putting money in 
the Federal Building Fund. What is your view on that? How big a 
hole would that create in the Federal Building Fund if that was 
able to go forward?
    Mr. Winstead. Right. Mr. Chairman, we have expressed and 
have appreciated historically the support of this Committee for 
the Federal Building Fund and for our ability to deliver on an 
economic and best-value basis facilities to the courts. We have 
actually achieved almost 40 million square feet of courthouses 
and office space for the judiciary, some 330 owned and another 
125 leased facilities, about 2500 courtrooms. It has been a 
remarkable legacy I think of a partnership.
    I recently met with Judge Roth, who heads their facilities 
committee, and with Judge Hogan, who is a neighbor of mine and 
chairs the executive committee for the judiciary and reports to 
the chief justice, and shared with them this amazing 50 
courthouse legacy of landmark buildings in our urban areas, and 
it has been a very strong partnership with our efforts to both 
realize and implement their space designs for their Federal 
courthouses, obviously work with this Committee and at the 
direction of this Committee in funding those courthouses, but 
also looking for cost savings where we can.
    And I am concerned about the situation with the courts. 
Obviously, they have increased caseload. I am a lawyer by 
training. They have increased caseload, they have to meet those 
needs. At the same time, they are seeing budge constraints 
which are impacting. Their rent portion is getting bigger and 
bigger percentage-wise. So what I have proposed--and I have 
talked to David Bibb, who is our acting administrator.
    In fact, next week we have meetings, and will continue to 
on a quarterly basis, with the courts. We need to address this 
with them. But as you all know, and have been a strong 
supporter of GSA, the integrity of the Federal Building Fund is 
based upon rents, which allow us to both build new buildings at 
your direction, to renovate our buildings, and to deliver, in 
the case of the courts, 50 landmark, beautiful urban buildings 
over the last 10, 20 years.
    So we are focused on this. We are going to be meeting 
regularly with them. You mentioned the utilization issue. I 
have actually and tried to understand better from the judges 
this 1:1 ratio between courthouses and judges, and why that is 
necessary or where it isn't necessary, and we are exploring 
those things and waiting for this report from GAO. The bottom 
line is--and I think we have responded to this Committee--that 
if you look at the fiscal year 2004 in terms of per square foot 
charges, their rent is about $25 a square foot, and the average 
rent for all our other Federal agencies is about $22 a square 
foot. In addition, over 2005, they actually achieved more back 
in terms of construction than they did in rent.
    So I will be--
    Mr. Shuster. Better return?
    Mr. Winstead. Sorry?
    Mr. Shuster. They had a better return on their investment 
than--
    Mr. Winstead. Basically, they have been getting more back 
than they have paid in. And I think the real issue I raised 
with Judge Hogan, and will continue to raise with the 
leadership of the judiciary, is that this is a partnership that 
makes sense because the economies that are gained between 
centralized real estate control, our Design Excellence Program, 
our Construction Excellence Program, that we deliver better 
value than if the judiciary and every other Federal agency spin 
off and establish real estate departments to do so.
    My last comment is that this Design Excellence Program, 
which is where we have had peer review from the best architects 
in the Country and selected them through a competition, has 
really yielded some remarkable structures. Now, I am not an 
architect, and I can't tell you that in every case is that 
design the most effective, but when taken in aggregate, I think 
the program has not only been a legacy for this Country, but 
has also galvanized the Country's best architectural and design 
minds, and produced really very outstanding buildings for the 
judiciary. We are committed to considering that and continuing 
that relationship, and will continue to work with the courts on 
their rent problem.
    Mr. Shuster. And their calculation on rent goes through the 
same process as any Federal agency?
    Mr. Winstead. Yes.
    Mr. Shuster. And that $3 more per square foot is probably 
due to the fact that their buildings are more pleasing to the 
eye?
    Mr. Winstead. Right.
    Mr. Shuster. Larger than--
    Mr. Winstead. I was just out in Fresno with Justice Kennedy 
for the opening of that courthouse, and if you have the 
opportunity to see it, it really is a remarkable building, as 
the Sandra Day O'Connor is in Phoenix. They are beautiful 
architectural landmarks.
    I would tell you, though, I am very focused on the issues 
of our Design Excellence Program, Construction Excellence 
Program. We are actually hiring a new assistant commissioner 
and sort of bifurcating the construction function in that 
office so that we can have better pre-award control and post-
award monitoring of these projects. What we have seen and has 
been reflected in the rent are the huge increase in material 
costs over the last four years in the marketplace, and that has 
translated into rent increases.
    Mr. Shuster. Well, I don't see any reason why we can't 
continue to build beautiful structures, landmark structures, 
but we need to make sure we are utilizing them, so I urge you 
to continue, as I am going to continue to talk to the folks in 
the courts to get this utilization plan, because I am concerned 
they are dragging their feet because they are going to find out 
that they are not utilizing these buildings the way they 
should. And these are taxpayer dollars. We have got to be good 
stewards and make sure that the utilization is significant.
    With that, I will turn to the Ranking Member, if you have 
any questions, statements, Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. I apologize 
to you and the Committee that I was unavoidably detained, and 
you did just the right thing to go ahead with this important 
hearing.
    I do want to say a few words. I won't read an entire 
statement, but I do want to say a few words, Mr. Chairman, 
about some of the issues, indeed, that you have raised and 
thank you for the way in which you have given oversight to 
important issues in this Committee. You mentioned in your last 
question the courthouses, for example, and the President--and I 
think for good reason--in his 2007 budget, did not authorize 
new construction for Federal courthouses. Now, virtually all 
that we build have been courthouses, and this has been perhaps 
the most troublesome form of construction in my 15 years on the 
Committee, and for reasons that vary from one period to 
another.
    The so-called Design Excellence Program that you speak of, 
Mr. Winstead, I congratulate you on. Design was one of the 
great and terrible controversial issues that faced this 
Committee when GSA virtually abdicated its responsibility some 
years ago to the courts and we have a virtual scandal, papers 
wrote about courthouses with high ceilings and chandeliers and 
kitchens and accouterments and trappings.
    That was a sorry, sorry period, as far as I am concerned, 
in the history of American jurisprudence, and it happened 
because courts sometimes confuse their jurisdiction over cases 
and controversies, which is theirs alone, and, Mr. Chairman, 
the jurisdiction that is yours and mine and, if I may say so, 
especially GSA's, and that is the jurisdiction over building 
the things.
    Building the things is not for judges. I had a very 
troublesome meeting with the very good friend who heads this 
work for the judiciary, where she literally cited cases and 
controversies as a reason why they ought to have input. I am a 
law professor. I had to then read her the riot case about cases 
and controversies and the Constitution of the United States.
    This has been a chronic problem, though, as some of my 
questions will indicate, for GSA, that is to say, not as much 
for the courts, because this Subcommittee--and this was some 
years ago, Mr. Chairman--reined in GSA on that issue, but, 
frankly, on how much leverage an agency has when it comes to 
spending of taxpayers' money, and that has to do with 
everything from how it is located to how it is designed.
    Now, I compliment you for the fast way in which you are 
moving ahead on what the President has included in his budget, 
and that is the construction of a new headquarters for the 
Coast Guard. And that comes at an opportune time not only 
because it is part of the Department of Homeland Security, but, 
Mr. Chairman, that is a building not fit to house Federal 
employees or anyone else in, and I think that moving first on 
the Coast Guard part of the Homeland Security--perhaps there 
will be others; we don't know exactly what yet--was very wise 
for the President and wise for you, and, yes, I look forward to 
working with you, as we will with the community. It is a truly 
historic building because it is the first time that the Federal 
Government has built east of the Anacostia River.
    We own this huge piece of land that was St. Elizabeth's 
Hospital, closed decades ago, and we have let it lie there, 
even though the policy of this Committee is, of course, that 
the Federal Government will build on its own land before we go 
out and rent space from others. So this is a historic 
development for the District of Columbia because you are moving 
over to the other side of the Anacostia, and it is an important 
path-breaking work for you that the President has, himself, 
ordered.
    Mr. Chairman, I appreciate that there is going to be a 
hearing on courthouses later. You and I sent a letter in 2005 
for the courts to begin studying, with the help of the GAO, 
sharing of courtrooms, and I was very disappointed that that 
study seemed to have literally, or at least the involvement of 
the courts in it, had literally just begun when they met with 
me a couple of weeks ago. I am sure they met with the Chairman 
and his staff as well.
    So it seems to me that there is real reticence doing what 
the Committee said, and that is seeing the extent to which 
courtrooms can be shared among judges. And here we have this 
radical notion that of all of the agencies, the courthouses 
don't have to pay into the Building Fund. Of course, we who 
shouted to the hilltops, that means everybody else's budget in 
the Federal Government will make up for the fact that the 
courts are not paying into that fund, even though they are 
taking from that fund to build the courthouses. It doesn't work 
that way; it is a revolving fund, and I don't think that 
anybody in the Congress in either house is likely to do that.
    There is a very serious set of other questions that I will 
reserve for my own questions, and I think probably the best 
thing to do, since I have given something of a statement during 
this, is to then let you go, Mr. Chairman, to the next person, 
and on the next round I will have a few questions.
    Mr. Shuster. Thank you, Ms. Norton. I think you make a 
great point there, that what the courthouse looks like doesn't 
stop our courts from administering justice; they could that 
from a warehouse, they don't need these opulent places. But we 
certainly don't--we are not suggesting we move them into 
warehouses, but they could do it in a warehouse if they had to. 
That is the reality of it. And it wouldn't affect what we do up 
here with them administering justice.
    Mr. Kuhl, you are recognized.
    Mr. Kuhl. Thank you for coming. I appreciated your 
testimony. Being a new member on the Subcommittee, there are 
some things that I will probably ask you about that everybody 
else here knows. But I am just curious as to your perception of 
the need across the Country as to other buildings. Obviously, 
you haven't included everything in your request here. How do 
you go about deciding what buildings are ready to be renovated 
or torn down and reconstructed?
    Mr. Winstead. Right. Congressman, we have--I mentioned a 
little earlier, the structure of our real property asset group 
at GSA is doing a constant assessment based on a return on 
equity, the same principles that a private real estate firm 
would do, looking at the rent and looking at the reinvestment 
in those facilities, and we have actually--and this is sort 
of--Bill Matthews, who is here, Assistant Commissioner, is in 
charge of that.
    We have actually, over the last three years, completely--as 
we do regularly--review those assets and determine which ones 
are efficient to the goal to both return, as well as energy and 
operating costs, and we compare them to industry standards, the 
BOMA standards, which sort of evaluate operating costs. And if 
those facilities are in fact meeting the client need and are 
efficient, we continue to invest in them, and part of these 
requests are obviously the renovation, alteration programs as 
well. So that is how we sort of evaluate the properties in 
terms of reinvesting in them.
    We also have a realty specialist on the local level and 
regional account managers that are dealing with our major 
Federal tenants in the 11 regions around the Country, so they 
are constantly understanding what their contracting needs are. 
There is much consolidation going on, as well as, in the case 
of the FBI and other agencies and DHS, major expansion. So we 
sort of can predict where they are moving.
    And based on market information that we are getting for the 
national brokerage contract and our own information, we can, 
you know, manage those flows, trying to keep them in 
government-owned buildings that historically are more cost-
effective for the taxpayer, as well as where we need special 
space or we need space quickly, the marketplace in our lease 
program--which is actually half of our inventory--can address 
that.
    So we are constantly managing our own inventory, constantly 
looking at our leased inventory to make sure that we understand 
when are leases expiring, working with our client agencies to 
understand what their space needs will be beyond that 
termination date, and renegotiating on their behalf to meet 
those needs.
    Mr. Kuhl. Okay. Are there facilities right now that you 
would like to do but the financial burdens of the Country 
really are kind of limited and prohibit you from doing that?
    Mr. Winstead. Yes, Congressman Kuhl. There are constantly 
an inventory of projects. These prospectuses before you are 
actually our current focus in 2007, but there are unmet needs 
that we are constantly sort of benching and preparing to move 
into the program in terms of renovation or new construction.
    Mr. Kuhl. Okay. Could you tell me, there is a facility in 
Buffalo, New York, I think it is a new Federal courthouse that 
is on, I think, the list to be done. Could you tell me where 
that rates as far as other projects that might be considered?
    Mr. Winstead. Yes. I personally went up with the regional 
administrator in New York to meet the judges in Buffalo, and it 
is remarkable what that new courthouse will do for the downtown 
area of Buffalo across from city hall. And we are moving to try 
to get that funded. It is in the queue to move forward, but it 
is not--I think there has been some Senate action on it, but it 
is not a part of this program here. They were concerned about 
that.
    The existing courthouse up there, in my opinion, has been 
recently renovated, it is very attractive, quite unusual older 
building, and it is meeting their current needs, but they are 
very anxious to obviously get beyond the site acquisition, into 
design and completion of that new courthouse.
    Mr. Kuhl. Any thoughts about time line for completing that?
    Mr. Winstead. I know we are working very hard. It depends 
upon when the funding is approved. I know that we are 
constantly in touch with the courts and with the Buffalo 
interests in that regard, but I can't predict exactly when the 
construction dollars are going to be in the program.
    Mr. Kuhl. Okay. Thank you.
    I yield back.
    Mr. Winstead. Congressman, I would be happy to get you a 
briefing on it, get back to you.
    Mr. Kuhl. That would be great. That would be great. Thank 
you.
    Mr. Shuster. I don't want to beat a dead horse, but I am 
going to. I think it would help the courts immensely if they 
moved quickly on this study that we have requested, and I 
believe they have agreed to it now. As we bring up new 
courthouses, I know I will be hesitant to approve any new 
construction until we figure out exactly how to utilize it. So 
the courts need to move forward.
    Mr. Winstead. Right. Well, I look forward to the GAO study 
as well. I mean, we have looked at their new design guide. We 
are working in trying to save design costs and utilization, 
increase space and things of that nature, but that would be 
very helpful to us.
    Mr. Shuster. Mr. Michaud, questions?
    Mr. Michaud. Thank you very much, Mr. Chairman. I have 
three questions; they are all related. Within GSA, how is the 
Border Crossing Station Program managed and is there an office 
dedicated specifically for this program? And my last question 
is how does GSA work within Homeland Security?
    Mr. Winstead. Right. Congressman, we do have an office of 
border station portfolio. They manage a huge increase for our 
client, Customs and Border Protection. Essentially, we have 
three offices. One is for the courts and one is for the border 
station because it is a large part of our construction program. 
You may see in this request for authorization, you will see six 
new requested border station programs totaling about $95 
million. That is on top of fiscal year 2006, where we had five 
at about $211 million.
    I had the occasion last week to meet with a coalition of 
communities on our northern and southern borders that are very 
interested in--it is called the Border Trade Alliance, I 
believe--very interested in the efficiencies that can be gained 
with throughput of traffic and commercial vehicles and these 
border stations.
    Obviously, we have very, very specific needs in containment 
areas and all sorts of needs in terms of scanning freight, so 
it is a very unique facility. On a per square foot basis, they 
tend to be more expensive, and I know one question of the 
Committee that came back to our staff before this hearing was 
why do you have a variation between various border stations. It 
is because of both the need and a case configuration site 
specifics that might change some of those costs.
    But we do feel--and I have a brochure that will lay out 
some of our stations in the northern part, on the Canadian 
border, that I can leave with you. But I think it has been an 
excellent program and I think, again, through the efficiencies 
of our design, construction, and architectural team, that we 
can deliver it very efficiently for, obviously, CBP, and we can 
continue to do that. And I would be happy to provide you 
specific information on any of the prospectus for any of the 
specific projects, background information, if you would like.
    Mr. Michaud. What about leased? Are all your border 
stations leased, government-owned?
    Mr. Winstead. Yes. We have the majority of them are, but 
there are some situations where there are leased facilities. 
And I know that some of them are unusual in that regard. There 
are several cases where we essentially have the communities on 
the border and some private interests involved in certain 
passages, but the majority of them are government-owned, 
Federally-owned border stations.
    Mr. Michaud. I would appreciate it if you can provide that 
for the Committee. I would be interested in seeing that.
    Mr. Winstead. I would be happy to.
    Mr. Michaud. And what elements of the Homeland Security 
Department will be reassigned to St. Elizabeth?
    Mr. Winstead. Yes. We are working very closely with DHS now 
in that regard. They, as you know, have the Nebraska complex, 
and although they haven't released a proposed plan, we are 
working the NCR here. The National Capital Region is working 
very closely with them to try to make sure that we take 
advantage of the St. Elizabeth's Campus. Congressman, it is 
about 176 acres. It is a large piece of ground with enormous 
visual impact on Washington. If you would like a tour of it, I 
would be happy to arrange it.
    But it is very secure. It meets all the highest-end 
security setback requirements. There are some historic 
buildings that we will incorporate within the campus plan for 
the Coast Guard and other potential tenants from DHS. But we do 
feel that it is the last remaining piece of major secured real 
estate, and Washington, I think, offers an excellent 
opportunity for a campus for a lot of these high-end security 
DHS functions.
    Mr. Michaud. Thank you.
    I yield back, Mr. Chairman.
    Mr. Shuster. Thank you, Mr. Michaud.
    Ms. Norton, do you have further questions?
    Ms. Norton. Thank you very much, Mr. Chairman. I note that 
GSA and, it looks like, the State Department want or at least 
have put in their own bids for Walter Reed Hospital. I can 
certainly understand that given the hunger of the Federal 
Government for land here. There are millions of square feet of 
office space you need and, of course, you want to do as much in 
the Nation's capital, especially since cabinet agencies should 
be consolidated in the Nation's capital in particular.
    I am wondering when we will know--well, first of all, I am 
wondering if there is any chance that some of that, for 
example, the part that borders Georgia Avenue, would be 
utilized by the District of Columbia, which has set up its 
own--according to, of course, Federal law--its own authority in 
case they may have some part of the land and, of course, in 
order for you to consult with the local authority.
    The part of the land on 16th Street, of course, is very 
residential. You would expect the State Department to want that 
because there are embassies on 16th Street. Georgia Avenue is a 
very commercial, and the hospital has some considerable setback 
from Georgia Avenue. So what I am asking is whether you believe 
that some kind of mixed development with the Federal Government 
using the space it needs with the appropriate setback, but with 
a curbside commercial space being possibly used by the District 
of Columbia is a possible configuration.
    Mr. Winstead. Delegate Norton, you have been such a partner 
with our agency over the decades in terms of the District and 
of our needs here. In addition, some of these innovative 
projects such as St. Elizabeth's and the Southeast Federal 
Center. I know that Mayor Williams this morning had a comment 
in the paper regarding Walter Reed, that he has set up this 
local redevelopment authority committee to help look at some of 
these ideas, some of these mixed use ideas. Obviously, there 
has been, from GSA's perspective and the State Department, 
there are obviously needs in terms of embassy functions or 
potential Federal office options.
    I would hope that our NCR--we chatted about this when I 
came to your office. We want to make sure that we have the best 
planning perspective in how we can help that partnership with 
the city, and it seems to me the most successful office 
environment, as you know well, is this mixed use approach. I 
just don't know, first-hand, what the whole campus utilization 
would be.
    I agree with you that 16th Street is much more residential 
in character than Georgia Avenue with the investments made. 
Both on the D.C. and Maryland side of Georgia Avenue is a major 
commercial corridor and a major redevelopment area, and should 
be, also transit-served, which is helpful.
    So I think we will continue to partner with the city, with 
the NCPC and other groups, State Department, in trying to look 
at the needs and options--
    Ms. Norton. But you don't know when a decision will be made 
as to whether or not the Federal Government agencies, GSA and 
State Department, who want the land will get the land. When 
will that decision be made?
    Mr. Winstead. Delegate, I believe NCR is currently working 
on trying to set a time line for that. I can't--but I can get 
to back to you on what our plans are.
    Ms. Norton. I wish you would get back to me. I just want to 
say--I am not going to take up the Committee's--
    Mr. Winstead. I am sorry, Delegate Norton. I apologize. We 
do expect by next month that decision. I apologize.
    Ms. Norton. That is important information. But I do want to 
say I don't think the Committee is going to have to think about 
Walter Reed for a very long time. I really do not believe 
that--although BRAC has said that the Walter Reed Hospital will 
now be constructed at Bethesda, I don't, for a moment, think 
that anybody is going to put down $1.5 billion to build a new 
hospital at a time when we have such a deficit, and when we 
have, if not a state of the art hospital--it was built in the 
1970s--at least a going hospital that everybody was surprised 
to see closed anyway. So I am not going to spend a whole lot of 
time on that.
    I just have a couple of questions.
    Mr. Winstead. Yes, ma'am.
    Ms. Norton. And this has been a perennial problem with GSA, 
and it really goes back to what I was saying about the courts, 
what the Chairman indicated when he talked about the plan, and 
that is the locational policy of GSA and its handing off its 
responsibility to other agencies. When I say the courts, it was 
certainly not the courts alone.
    GSA has been roundly accused of participating with agencies 
in redlining, to just use the nasty word. Actually, GSA helped 
me fight an attempt by an agency to redline when an agency 
chose to put the FCC down where--which is now one of the up and 
coming elegant areas of the city, and the FCC wanted to renege 
on it literally after the building was built.
    Now, here are people who had gone through a competitive 
process--and I want to stress that this is a competitive 
process, where you, the experts, say to the agencies, tell us 
your needs, and then you put out an RFP and people have to come 
in, and you do not award on the basis only of price, but you 
have a competitive process that you choose the best place based 
on the taxpayers' responsibilities and the agency's 
responsibilities.
    With that as a preface, I have some real concerns about 
some leases, such as the Department of Justice consolidation 
lease. I mean, we have been trying to consolidate Department of 
Justice for decades, and the Department of Justice seems to 
have a total veto over leases even after you go through a 
competitive process. You canceled a recent Department of 
Justice process after, apparently, the winning party had been 
chosen.
    The Chairman has pulled the FBI lease until we can all be 
briefed because you seem to be into piecemealing the FBI, 
whereas, the policy of the Federal Government is consolidation 
to the greatest extent possible. And if you see an agency like 
the FBI that is growing, you would think that the experts--and 
goodness knows that is what you are--would look at whether or 
not there would be a housing plan somewhere here, or somewhere 
else, if that is not possible, that would consolidate the 
agency. I think the Department of Justice is located in more 
than 20 different sites someplace around the city and the 
region.
    So my question really goes to how you conceive of your role 
once a determination has been made through the competitive 
process that a site is in the best interest of the Federal 
Government. How do you conceive of your role when the agency 
may want to be elsewhere, such as wanting to be as near K 
Street as possible, wanting to be in the hub nearer the mall, 
when everybody knows that that space is virtually gone, not 
wanting to go to new areas, despite the statutory provision 
that says that the Federal Government has a responsibility to 
go to an area first, because when it does, it opens up the area 
and it renews the area almost instantly because other kinds of 
commercial and housing comes in? That has been the statutory 
role of the agency forever.
    And yet, for example, I note there is an area of the 
District of Columbia which has been cleared, it is literally on 
the gateway to the District of Columbia in downtown Washington. 
It is the last remaining large site in downtown Washington. We 
call it NOMA, North of Massachusetts Avenue. You cooperate with 
me to have an opportunity for Federal agents to come in and 
find out about NOMA.
    And what did they find out? That once, Mr. Chairman, the 
ATF decided to move--now, this is New York Avenue and Florida 
Avenue. It couldn't be more central. Once the ATF decided to 
build there, almost as if, magically, we have got hotels 
planned, restaurants planned, the renewal of a whole area, 
won't cost the Federal Government one dime, but all it had to 
do was to find the best space for an agency. The ATF agreed to 
that space. It did not want to go to the region, for example.
    So when it saw--you know, let us see, what my choices are--
it agreed to that space. Spaces had precisely the effect that 
Federal construction always has, and yet this block of land 
around it--where, by the way, Mr. Chairman, the Federal 
Government, the D.C. Government, and the private sector, for 
the first time in Metro's history, have cooperated to build a 
whole new subway station, new subway station that the Federal 
Government only had to pay one-third of the price for, the only 
one of its kind in the whole region where the private sector 
and the locals have contributed in this way--vacant land where 
the private sector is doing what you would expect them to do. 
It is a new area.
    Yes, we know those things are coming. Federal agencies 
haven't been there before. Yes, it is very close to Union 
Station. Yes, it is very close to downtown Washington. But, 
yet, there will be reluctance because it is a new area.
    My question to you is whether or not there is any single 
agency which is going to this section. And, further, my 
question to you is whether or not you have advertised this 
section for any single agency so that RFPs could come in and 
you could see and compare it to other RFPs in the city and in 
the region.
    Mr. Winstead. Delegate Norton, I appreciate your concern 
and I understand it. You know, we do have authority under 
Section 120 to direct under the delineated areas, the agreed 
upon space and options and to procurement, both construction 
and lease. Your problem--and I did chat with you when I came by 
your office--in terms of the NOMA area is your commitment to it 
and my commitment to it are the same. My concern is that we 
will continue to make sure that it all of--
    Ms. Norton. Well, answer my question. Have RFPs come in?
    Mr. Winstead. There are a number of procurements underway 
in that area, and I know that because of that it is--
    Ms. Norton. Are these people bidding on the procurements 
you are putting out? The people who own that land, are they 
bidding or not?
    Mr. Winstead. Yes, they are. There are options--
    Ms. Norton. All right, let me just say this, Mr. Chairman. 
I want to put on the record, because I am very concerned that 
there is--these people tell me--because after GSA and I went 
and had this whole big thing to say to the agencies, look here, 
you then involve yourself in something that this Congress has 
nothing to do with.
    You then have to decide competitively what is the best 
place. These people tell me that because they know they are a 
little distance away from where agencies are used to going, 
that they are putting in bids that they know that their 
competitors could not possibly put in. In other words, they are 
willing to be lost leaders in order to in fact get Federal 
agencies to come to this space.
    So they tell me--and they don't know what your bids are 
from others and I don't know what your bids are from others. 
All I know, that if developers in D.C., of which there are a 
fair number who own space there, tell me they know they are 
very significantly under-bidding, under-pricing their land 
relative to everything in the region and everything in the 
city, then I have real questions as to whether or not you are 
engaged in redlining a central area of the District of Columbia 
from Federal agencies going there and costing the taxpayers 
more by either doing as you did for DOJ and saying, well, they 
don't want it, so we canceled the lease, or otherwise not doing 
the job of encouraging agencies to go there once you find that 
that is the best place for the taxpayers and for the agencies.
    Mr. Winstead. Delegate, I understand your concern, and our 
commitment is the same. We will continue to communicate with 
the developers and understand their options. We think this 
area, with the investment of the new Metro there, which was, by 
the way, historically unique in its funding base. You actually 
had contributions through TIFs to bring that in place. It was 
brought online and completed faster than any system in the 
Metro system.
    It is a very--it is a brilliant corridor in terms of office 
options for GSA, and we will continue, as I mentioned to you in 
a meeting, continue to make sure that we are engaged in 
information and both the options that exist there as well as, 
obviously, the procurements that are out there that this area 
is a part of. And I will be happy to continue to report to you 
on that. I know that our NCR realty specialists are reaching 
out through the DCBIA in a lot of these forums, real estate 
forums, where a lot of these areas of growth and opportunity 
are presented and are being educated--
    Ms. Norton. Mr. Winstead, just let me say this.
    Mr. Winstead. All right.
    Ms. Norton. Unless you do what realtors do, people in your 
position, for the private sector and market this part of the 
area, these people are not going to want to go there.
    Mr. Winstead. I understand.
    Ms. Norton. And they are going to force you if you look 
like GSA has always looked, like it will do anything to please 
the agency.
    Because, Mr. Chairman, this Committee hasn't done the kind 
of oversight on this issue. We have complained about it.
    And I think what you are doing--if you are going to leave a 
huge section of the District of Columbia in downtown Washington 
vacant, where there is a subway stop, where the private sector 
has already pioneered--
    Mr. Chairman, this is where XM Radio has located and 
pioneered. We are not talking about some God-forsaken part.
    If you are going to leave that, I think you invite further 
oversight of this Committee as to how you handle RFPs, and 
particularly if we find that, all of a sudden, RFPs for people 
like the DOJ are vacated--whoops--for no reason--there it goes; 
there it was--particularly since you have a number of agencies 
coming up. You know, some of these people are not going to want 
to go to St. Elizabeth's. The President has made it clear, 
though, that this is a secure agency we are building here.
    But you are going to find people saying, well, we don't 
want to go to this new place. If they don't want to go to New 
York Avenue, imagine wanting to go across the river. Where are 
they going? And once they get there, they will find it is just 
fine. But if they don't have somebody besides me trying to 
convince me, if they don't have the experts in the field 
talking about what happens when a Federal Government builds a 
building.
    All you have got to do is look at Southwest. Look at 
downtown Washington. If you think downtown Washington got to be 
the way it is somehow because people decided let us make a 
beautiful downtown, then you don't understand the role of the 
Federal Government.
    One more question, Mr. Chairman. I am on the Homeland 
Security--
    Mr. Shuster. I just want to mention we are going to have a 
vote at about 11:15, 11:30, so if you can have a final 
question, and we will try to get through as much as we can of 
the markup also.
    Ms. Norton. We have a markup?
    Mr. Shuster. Yes.
    Ms. Norton. Well, Mr. Chairman, I will go to the markup. I 
just want to say--
    Mr. Winstead. I will get back on the--
    Ms. Norton. And I want to say the notion of your role in 
this interagency committee on security, I would like to know 
the difference between your own security guidelines and what 
that interagency security came up with.
    Mr. Winstead. I would be happy to get that back to you.
    Mr. Shuster. All right.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Winstead. Thank you, Delegate Norton.
    Mr. Shuster. Commissioner, just one question briefly, if 
you answer it. The design guide, allowing the--and I think Ms. 
Norton brought this up before--was it a good idea to give it to 
the Federal courts to design their own buildings? And is there 
any thought at the GSA of taking that back? Because I 
understand GSA decided to give it to them, and it would seem to 
me you would do a better job of that oversight.
    Mr. Winstead. Mr. Chairman, there has been repeated editing 
efforts on the design guide. We have the most recent input back 
from the courts' design guide and we had opportunities, 
actually since I have been at GSA the last six months, to input 
into that document to ensure that our designers and architects 
and their team are working that it is the most efficient 
guidelines, and the courts have been receptive to that. They 
are actually working with them. We have a meeting on April the 
11th, Mr. Chairman, with the facility committee of the courts 
and the chairman of that, Judge Roth, to actually discuss the 
design guide and its impact--
    Mr. Shuster. But to discuss GSA taking back that or not?
    Mr. Winstead. Well, we haven't approached that yet, but we 
will bring it up at that meeting.
    Mr. Shuster. All right. Okay, well, thank you very much for 
being here with us today. Appreciate it and look forward to 
talking--
    Mr. Winstead. Thanks for all your support and for the 
Committee's support.
    Mr. Shuster. I would also like to ask unanimous consent 
that the record of today's hearing remain open until such time 
as our witness has provided answers to our questions that may 
be submitted to him in writing, and unanimous consent that 
during such time as the record remains open, additional 
comments offered by individuals or groups may be included in 
today's record. Without objection, that is so ordered.
    If no one else has anything to add, the Subcommittee is in 
recess.
    [Whereupon, at 11:07 a.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T8278.001
    
    [GRAPHIC] [TIFF OMITTED] T8278.002
    
    [GRAPHIC] [TIFF OMITTED] T8278.003
    
    [GRAPHIC] [TIFF OMITTED] T8278.004
    
    [GRAPHIC] [TIFF OMITTED] T8278.005
    
    [GRAPHIC] [TIFF OMITTED] T8278.006
    
    [GRAPHIC] [TIFF OMITTED] T8278.007
    
    [GRAPHIC] [TIFF OMITTED] T8278.008
    
    [GRAPHIC] [TIFF OMITTED] T8278.009
    
    [GRAPHIC] [TIFF OMITTED] T8278.010
    
    [GRAPHIC] [TIFF OMITTED] T8278.011
    
    [GRAPHIC] [TIFF OMITTED] T8278.012
    
    [GRAPHIC] [TIFF OMITTED] T8278.013
    
    [GRAPHIC] [TIFF OMITTED] T8278.014
    
    [GRAPHIC] [TIFF OMITTED] T8278.015
    
    [GRAPHIC] [TIFF OMITTED] T8278.016
    
    [GRAPHIC] [TIFF OMITTED] T8278.017
    
    [GRAPHIC] [TIFF OMITTED] T8278.018
    
                                    

</pre></body></html>
